GR-40-98-009
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grant to the Town of Sunflower, Mississippi, Police Department
Grant Number 96-UM-WX-0827
GR-40-98-009
March 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
Universal Hiring Program (UHP) grant awarded by the U.S. Department of Justice (DOJ),
Office of Community Oriented Policing Services (COPS), to the Town of Sunflower,
Mississippi, Police Department (Town of Sunflower). The Town of Sunflower received the UHP
grant of $145,326 (No. 96-UM-WX-0827) to hire two additional officers. The purpose of the
additional officers is to enhance community policing efforts.
In brief, the Town of Sunflower violated a grant condition:


- The Town of Sunflower's grant application claimed $25,000 as the entry-level salary
    for a police officer. However, the beginning salary approved by the Town's Board of
    Aldermen was $5 per hour. Consequently, we question the excess salary and related fringe
    benefits paid, $36,456 (see Footnote 2), as unallowable.
Since the grant was computed based upon unallowable salaries, the OJP and COPS, in
    conjunction with the Town, should recompute the grant based on the $5 per hour rate plus
    fringe benefits. The amount of the original grant in excess of allowable salaries paid to
    date plus estimated salaries for the remainder of the grant period should be deobligated.


 
#####